                                                      UNITED STATES GOVERNMENT
                                            FEDERAL COMMUNICATIONS COMMISSION
                                                     OFFICE OF INSPECTOR GENERAL


                                                   MEMORANDUM

DATE:         July 22, 2010

TO:           Steven VanRoekel, Managing Director

FROM:         David L. Hunt, Acting Inspector General

SUBJECT: Reissuance of Report on the Audit of FCC’s Recovery Act Procurements


The Office of Inspector General (“OIG” or “Office”) issued the subject audit report on March
31, 2010. Subsequent to the report’s issuance, we were contacted by the Office of Managing
Director and informed that management wanted to submit a supplemental response on the results
of the audit. In the interim we removed the audit report from our website and recovery.gov, as
requested. The supplemental response was provided on July 1, 2010.

OIG has reviewed the supplemental response and determined that the information provided does
not require a supplemental audit report. Therefore, the audit report is being reissued in its
entirety, along with the supplemental information. OIG notes that the supplemental information
provides management concurrence on recommendations in the original audit report that were not
addressed in management’s original response to the draft report. This information results in
management concurrence to all recommendations contained in the audit report.

Please contact me or Tom Cline of my Office on 202-418-7890 if you have any questions.


Attachment

cc: 	   Wanda Sims, Associate Managing Director Administrative Operations
        Bridget Gauer, Chief Contracts and Purchasing Center
        Daniel Daly, Chief of Staff
        Walt Boswell, Performance Evaluations and Records Management
                                                OFFICE OF INSPECTOR GENERAL
                                                                               MEMORANDUM




DATE:          March 31, 2010

TO:            Steven VanRoekel, Managing Director

FROM:          David L. Hunt, Acting Inspector General

SUBJECT:       Report on the Audit of the FCC’s Recovery Act Procurements

The Office of Inspector General is providing the report on the Performance Audit of the FCC’s
Recovery Act Procurements. The Office of Inspector General engaged Ollie Green & Company
to conduct the audit. The scope of the audit included Fiscal Year 2009 contracts and purchases
funded by the American Recovery and Reinvestment Act (Recovery Act). The audit objectives
were to:

   •	 Determine if the contracts funded by the Recovery Act were awarded and administered in
      accordance with provisions of the Recovery Act, the Federal Acquisition Regulation, and
      FCC policies and procedures.
   •	 Evaluate the adequacy of the design and implementation of internal controls related to
      the award and administration of contracts funded by the Recovery Act.

The audit report identified nine findings related to internal controls over the FCC’s contract
administration process for Recovery Act contracts:

   •	 Internal controls were not documented,
   •	 Contract administration personnel’s independence was not always documented,
   •	 Three contract administration personnel did not complete the required training,
   •	 The Letter of Appointment was not signed by contract administration personnel,
   •	 The debarment and suspension searches were not documented,
   •	 Contract administration personnel did not always document their monitoring of vendor
      performance,
   •	 Contract files were incomplete,
   •	 The Contracting Officer’s Technical Representative Handbook was outdated, and
   •	 Prior Office of Inspector General audit recommendations had not been implemented.
Management generally concurred with the auditor’s findings and their recommendations for
corrective actions. Management has already initiated several corrective actions and agreed to
implement additional procedures to improve internal controls over the contract and purchasing
process.

Ollie Green & Company is wholly responsible for the attached report dated March 31, 2010.




                                            David L. Hunt, JD
                                            Acting Inspector General


Attachment

cc: 	   Wanda Sims, Director, Office of Administration
        Bridget Gauer, Director, Contracts and Purchasing
        Ollie Green & Company, CPAs




                                               2

March 30, 2010

Mr. David L. Hunt, JD
Acting Inspector General
Federal Communications Commission
445 12th Street S.W.
Room 2-C750
Washington, DC 20554

Subject:     Report on the 2009 Performance Audit of Federal Communications
             Commission’s Contracts and Purchasing Center’s Compliance with
             the American Recovery and Reinvestment Act of 2009 (P.L.111-5)
             Provisions.

Mr. Hunt:

In accordance with the terms of contract # PUR09000698, Ollie Green &
Company, CPA’s conducted a performance audit of Federal Communications
Commission’s (FCC) Contracts and Purchasing Center’s (CPC) Recovery Act
procurements. The audit included assessing CPC’s compliance with Recovery
Act provisions, FCC’s policies and procedures, and federal acquisition laws and
regulations.

The results of our audit show that overall FCC-CPC was generally compliant with
Recovery Act provisions, FCC policies and procedures, and federal acquisition
laws and regulations. However, we identified nine (9) reportable findings that
represent internal control weaknesses in CPC’s procurement processes. We
have disclosed these weaknesses in our report.

We conducted the performance audit in accordance with Government Auditing
Standards, July 2007 revision. We were not engaged to and did not perform a
financial statement audit, the purpose of which would be to express an opinion on
specified elements, accounts, or items. This report is intended to meet the
objectives described above and should not be used for other purposes.

We appreciate the opportunity to have worked with FCC. Please call me with any
questions you may have.

Sincerely,


Ollie Green, MBA, CPA
Managing Partner
Ollie Green & Company
Certified Public Accountants
Louisville, KY




                   Performance Audit of the 

             Federal Communications Commission’s 

                  Recovery Act Procurements


                        March 31, 2010 





            FCC Purchase Order No. PUR09000698 

                                      TABLE OF CONTENTS 


EXECUTIVE SUMMARY ........................................................................ 1 


SUMMARY OF FINDINGS AND RECOMMENDATIONS............................ 2 


RESULTS OF AUDIT............................................................................. 5 


    Background.................................................................................... 5 


    Objective, Scope and Methodology.................................................. 6 


FINDINGS AND RECOMMENDATIONS 


   1. Internal Controls Not Documented ................................................ 7 


   2. Independence Not Documented.................................................... 8 


   3. Three (3) COTRS Did Not Complete Required Training................. 10 


   4. Letter of Appointment Not Signed By COTRs/TPOCs.................... 11 


   5. Debarment/Suspension Search Not Documented ........................ 13


   6. Did Not Always Document Monitoring of Vendor Performance ..... 14


   7. Contract Files Were Incomplete .................................................. 16 


   8. COTR Handbook Was Outdated .................................................. 18


   9. Did Not Implement Recommendations From Prior OIG Audit ........ 19 


Appendix A (Objectives, Scope and Methodology) .............................. 21 


Appendix B (Management Comments) ............................................... 25


Acronyms:

   American Recovery and Reinvestment Act of 2009 ................... Recovery Act 

   Contracting Office .....................................................................................CO 

   Contracting Officer Technical Representative ...................................... COTR 

   Contracts and Purchasing Center ............................................................CPC 

   Excluded Party List System.................................................................... EPLS 

   Federal Communications Commission .....................................................FCC 

   Federal Acquisition Regulation ................................................................ FAR 

   Office of Inspector General ...................................................................... OIG 

   Ollie Green & Company.........................................................................OG&C 

   Technical Point of Contact .................................................................... TPOC

   Technical Evaluation Panel ...................................................................... TEP

                                       Executive Summary

    The Federal Communications Commission (FCC) Office of Inspector General
    (OIG) contracted with Ollie Green & Company, CPA’s (OG&C) to conduct a
    performance audit of American Recovery and Reinvestment Act of 2009
    (Recovery Act) 1 procurements to determine whether the Contracts and
    Purchasing Center (CPC) is complying with the Recovery Act requirements,
    FCC’s policies and procedures and federal acquisition laws and regulations.
    The report is organized into the following sections:

                 •   Executive Summary
                 •   Background
                 •   Summary of Findings
                 •   Objective, Scope and Methodology
                 •   Findings and Recommendations

    The audit included a review of approximately $45.3 million in Recovery Act
    contracts from a universe of $66.9 million awarded to Small Businesses, Hub
    Zone Businesses and Other Size Businesses for the fiscal year (FY) ended
    September 30, 2009. Under the unprecedented transparency and
    accountability requirements of the Recovery Act, contractors receiving these
    Recovery Act awards were required to report performance and statistical
    information, such as number of customers served, installations completed,
    number of jobs created and the number of jobs retained. Our audit found that
    FCC management monitored required contractor on-line reporting in
    accordance with Recovery Act provisions.

    The table below illustrates the total dollar values 2 of Recovery Act awards
    selected for testing compared to the universe available for testing by
    procurement type.

         Procurement             Total             Total            Total              Total
            Type                Awards            Dollars          Awards             Dollars
                                Sampled          Sampled           Universe          Universe
    Basic Installs 3                 9            $4,351,048             26           $8,797,398
    Expert Installs                  9             3,131,153             24            6,960,420
    Walk-In Centers                  8             3,465,360             36           11,558,397
    Call Centers                     1            28,387,507              2           32,474,507
    Media Buys                       1             5,966,260              1            5,966,260
    IT Support                      -0-                   -0-             1            1,102,703
    Total                           28           $45,301,328             90          $66,859,685



1
 American Recovery and Reinvestment Act of 2009, P.L. 111 -5.
2
 These values represent the contract awards recorded in CPC’s financial systems as provided by
  agency staff. Ollie Green & Company did not audit these values.
3
 Contracted services included basic in-home digital–to-analog converter box installation, expert
  in home digital transition services, DTV walk-in help centers, mobile clinics, and nationwide call
  center services.
                                                   1
The results of our audit testing show that FCC-CPC was generally compliant with
Recovery Act requirements, FCC policies and procedures and Federal
acquisition laws and regulations. However, we identified nine (9) reportable
findings that represent internal control weaknesses in the CPC’s contracting
and purchasing processes. Specifically, improvements are needed in the
following areas: documentation of internal controls, documentation of
personnel independence, Contracting Officer Technical Representative (COTR)
training, Letter of Appointment execution, debarment search documentation,
monitoring of vendor performance, contract file documentation, COTR
handbook update and prior audit follow-up procedures. See the summary of
findings and recommendations below:

                Summary of Findings and Recommendations

                 Findings                             Recommendations


1. Internal Controls Not Documented       We recommend that the CPC Director:

                                          1a. Develop, document and implement a
                                              comprehensive system of internal controls
                                              designed to yield assurances that potential
                                              errors associated with CPC’s procurement
                                              processes will be prevented or detected.
                                          1b. Develop written procedures to require a
                                              periodic review of CPC’s internal controls
                                              to ensure adequacy. Periodic updates
                                              should be implemented to address changes
                                              in procurement processes.

2. Independence Not Documented            We recommend that the CPC Director:

                                          2a. Require COTRs and Technical Evaluation
                                              Panel (TEP) personnel to complete conflict
                                              of interest statements for the period of
                                              responsibility and include in the contract
                                              file.
                                          2b. Implement internal controls to ensure that
                                              COTRs and TEP personnel establish and
                                              document their independence prior to
                                              assignment of COTR and TEP
                                              responsibilities.

3. Three (3) COTRs Did Not Complete the   We recommend that the CPC Director:
   Required Training
                                          3a. Implement internal controls and written
                                              procedures to ensure that each COTR
                                              assigned to future contracts including
                                              Recovery Act contracts is properly trained
                                              and proper training documentation is
                                              maintained.



                                          2

                  Findings                                    Recommendations


                                                  3b. Review the Recovery Act contracts
                                                      administered by the three (3) untrained
                                                      COTRs for FAR, Office of Management and
                                                      Budget (OMB) Memorandum M-09-15 and
                                                      Recovery Act Compliance.


4. Letter of Appointment Not Signed By            We recommend that the CPC Director:
   COTRs and Technical Point of Contact
   (TPOCs) (11 of 18 and 16 of 23 Respectively)   4. Implement internal controls and written
                                                     procedures to ensure that each
                                                     COTR/TPOC assigned to all contracts,
                                                     including Recovery Act contracts, has a
                                                     signed and fully executed Letter of
                                                     Appointment in the contract file.

5. Debarment/Suspension Search Not                We recommend that the CPC Director:
   Documented
                                                  5a. Review all Recovery Act contract awards
                                                      to determine whether any of the awardees
                                                      were debarred or suspended at the time of
                                                      the contract award. If so, initiate and
                                                      document appropriate remedying actions.
                                                  5b. Implement internal controls and written
                                                      procedures to ensure that an Excluded
                                                      Party List System (EPLS) search is
                                                      conducted to determine whether the
                                                      offeror was debarred or suspended prior to
                                                      making the contract award. The results of
                                                      this search should be documented in the
                                                      contract file.

6. Did Not Always Document Monitoring of          We recommend that the CPC Director:
   Vendor Performance
                                                  6a. Establish standard operating procedures
                                                      (based on contract type) for COTRs to
                                                      follow when validating vendor
                                                      performance.
                                                  6b. Implement internal controls and written
                                                      procedures to ensure that COTRs validate
                                                      and document vendor performance prior
                                                      to approving the invoice for payment.




                                                  3

                 Findings                            Recommendations


7. Contract Files Were Incomplete        We recommend that the CPC Director:

                                         7a. Locate all missing documents required by
                                             FAR 4.803 and associate them with the
                                             appropriate contract file.
                                         7b. Implement internal controls and written
                                             procedures to ensure that contract files
                                             contain all documentation required by FAR
                                             4.803 and OMB Memorandum M-09-15.

8. COTR Handbook Was Outdated            We recommend that the CPC Director:

                                         8a. Update the COTR Handbook or replace it
                                             with other current or more relevant COTR
                                             guidance.
                                         8b. Implement internal controls and written
                                             procedures to ensure that the new COTR
                                             guidance is periodically updated as
                                             needed.

9. Prior OIG Audit Recommendations Not   We recommend that the CPC Director:
   Implemented
                                         9a. Implement all audit recommendations
                                             made in the OIG audit report 04-AUD -10-20
                                             dated November 4, 2005, and report the
                                             corrective actions in accordance with FCC
                                             and OIG policy and procedures.
                                         9b. Implement internal controls and written
                                             procedures to ensure that all
                                             recommendations resulting from prior
                                             audits are implemented on a timely basis in
                                             accordance with OMB Circular A-50.



Management generally concurred with our findings and recommendations. A
copy of management’s comments to our findings and recommendations is
provided in Appendix B.




                                         4

                                 Results of Audit

                                   Background

The FCC is an independent United States government agency, directly
responsible to Congress. The FCC was established by the Communications Act
of 1934 and is charged with regulating interstate and international
communications by radio, television, wire, satellite and cable. The FCC's
jurisdiction covers the 50 states, the District of Columbia, and U.S. possessions
and territories.

The FCC is directed by five Commissioners appointed by the President and
confirmed by the Senate for 5-year terms, except when filling the remainder of
an unexpired term. The President designates one of the Commissioners to serve
as Chairman and his/her tenure is served at the pleasure of the President. Only
three Commissioners may be members of the same political party and none of
them can have a financial interest in any FCC-related business. As the chief
executive officer of the Commission, the Chairman delegates management and
administrative responsibility to the Managing Director. The Commissioners
supervise all FCC activities, delegating responsibilities to staff units and
Bureaus.

The Recovery Act provided funds to the FCC to assist the American people in
their transition to digital TV. The Recovery Act specifies two programs under
which the FCC has responsibilities: the Digital-To-Analog Converter Box
Program (education and outreach), and the Broadband Technology
Opportunities Program. Under the Recovery Act the National
Telecommunications and Information Administration (NTIA) of the Department of
Commerce may transfer up to $90 million in funding to the FCC for consumer
education and outreach. Initiatives to be funded include media buys, walk-in
assistance centers, in-home converter box assistance, call center support
services, upgrades to improve the Commission’s DTV website, printing DTV
publications and translating those publications to benefit non-English speaking
communities, and travel for staff providing local support, particularly in markets
with a significant percentage of households receiving television signals over-
the-air. The Recovery Act states that additional funds may be transferred to the
FCC for developing a national broadband plan and for carrying out any other
FCC responsibilities under the Broadband Technology Opportunities Program.
The FCC's plans for implementing the Recovery Act, as well as its plans for
contracting for program requirements, are documented in the Agency-Wide
Recovery Act Plan for the Federal Communications Commission
(www.recovery.gov).

The Recovery Accountability and Transparency Board (the Board) was created
by the American Recovery and Reinvestment Act of 2009 to coordinate and
                                          5

conduct oversight of funds distributed under the Recovery Act. The mission of
the Board is to foster transparency and to coordinate and conduct oversight of
Recovery funds to prevent fraud, waste, abuse and mismanagement. The Board
is also responsible for reviewing Recovery Act funds to determine whether
wasteful spending, poor contract or grant management, or other abuses are
occurring, as well as referring matters it considers appropriate for investigation
to the Inspector General for the agency that disbursed the covered funds.
Additionally, the Board requires agencies that receive funds to perform audits of
funds appropriated under the Recovery Act.


                 OBJECTIVE, SCOPE AND METHODOLOGY

The overall objective of the audit was to determine whether contracts funded by
the American Recovery and Reinvestment Act of 2009 were awarded and
administered in compliance with provisions of the Recovery Act, FCC policies
and procedures and provisions, and the Federal Acquisition Regulation (FAR).
The scope of the audit included a review of twenty-eight (28) of ninety (90)
Recovery Act contracts awarded by the Contracts and Purchasing Center
during fiscal year ended September 30, 2009. These twenty-eight (28) contracts
were awarded for $45,301,328. Our audit methodology was designed to utilize a
risk-based approach to achieve our audit objectives. Our work included a
review of the pre-solicitation, solicitation, evaluation, award, and administration
phase of each contract selected in our sample. See Appendix A for additional
details on the objectives, scope and methodology.




                                          6

                    FINDINGS AND RECOMMENDATIONS

1. Internal Controls Not Documented
    
Our audit included determining whether CPC had implemented a comprehensive
system of internal controls to ensure that Recovery Act funds were expended for
the intended purposes, were properly accounted for, and met program
objectives. Specifically, we requested a written description or flowchart of
internal controls in place; interviewed CPC procurement management officials,
COTRs and other personnel; and distributed surveys to sixty-six (66) COTRs,
managers, and other CPC personnel soliciting information on internal controls,
fraud and the internal control environment. We received eleven (11) responses
(17 percent) to our survey. CPC procurement management officials indicated
that sufficient controls were in place to prevent or detect potential procurement
errors associated with Recovery Act contract awards, but could not provide a
written description or flowchart to confirm that it had implemented a
comprehensive system of internal controls to ensure compliance with Recovery
Act requirements.

According to OMB Circular A-123 Management’s Responsibility for Internal
Controls, management is responsible for establishing and maintaining internal
controls to achieve the objectives of effective and efficient operations, reliable
financial reporting and compliance with applicable laws and regulations.
Management shall consistently apply internal control standards to meet each of
the internal control objectives and to assess internal control effectiveness.

OMB Memorandum M-09-15, Updated Implementing Guidance for the American
Recovery and Reinvestment Act of 2009, Paragraph 6.5, dated April 3, 2009,
 states, “Agencies already have in place processes and procedures to
continuously monitor and improve the effectiveness on internal control
associated with their programs. In light of the Administration’s commitment to
high levels of accountability and transparency, special attention should be given
to maintaining strong internal controls over Recovery Act funds. High risk
associated with the award and expenditure of Recovery Act program funds
merit increased oversight by the agency.”

CPC management officials indicated that an adequate system of internal control
was in place but could not provide a written description or flowchart to
document the procedures and controls. As a result, we could not determine
whether CPC had implemented a comprehensive system of internal controls
designed to ensure that Recovery Act funds were expended for the intended
purposes, were properly accounted for, and met program objectives.

Our audit also found that the following findings cited in this report resulted from
a lack of documented internal controls:

                                           7

   •   Did not establish COTR/TEP personnel independence;
   •   Did not always provide required training;
   •   Did not always execute the Letter of Appointment;
   •   Did not document the debarment search;
   •   Did not always monitor vendor performance;
   •   Did not maintain complete contract files;
   •   Did not update COTR handbook;
   •   Did not implement prior audit recommendations.

Details are discussed in the Findings and Recommendations section of our
report.

Recommendations

We recommend that the CPC Director:

1a. Develop, document and implement a comprehensive system of internal
    controls designed to yield assurances that potential errors associated with
    CPC’s procurement processes will be prevented or detected.

1b. Develop written procedures to require a periodic review of CPC’s internal
    controls to ensure adequacy. Periodic updates should be implemented to
    address changes in procurement processes.

Management Response

1a. Management concurs. Management has indicated that going forward, it will
    develop comprehensive procedures designed to detect and prevent
    potential errors related to its procurement processes. Management has
    also indicated that it will periodically review CPC’s internal controls to
    ensure compliance.

1b. Management Concurs. See the response to recommendation no. 1a.

Auditor’s Comments

CPC’s planned actions are responsive to the audit recommendations cited
above and when fully implemented, should satisfy the intent of the audit
recommendations.


2. Independence Not Documented
    
An important part of our audit was determining whether independence had been
established and documented by the COTR and Technical Evaluation Panel (TEP)
personnel prior to assignment of COTR and TEP responsibilities. In conducting
our work, we requested information, documentation and the procedures used by

                                         8

CPC in establishing COTR and TEP personnel independence. We also requested
all signed documentation/statements confirming that the COTR and TEP
personnel were independent. This information was not available. Finally, we
requested conflict of interest files. These files were not provided. The
unprecedented accountability and transparency requirements associated with
the use of Recovery Act funds supports our conclusion that establishing and
documenting COTR and TEP personnel independence is an important part of the
contract administration process. Our audit found that COTRs and TEP
personnel did not document their independence in the contract file.

FAR Subpart 3.101-1, states “Government business shall be conducted in a
manner above reproach and, except as authorized by statute or regulation, with
complete impartiality and with preferential treatment for none. Transactions
relating to the expenditure of public funds require the highest degree of public
trust and an impeccable standard of conduct. The general rule is to avoid
strictly any conflict of interest or even the appearance of a conflict of interest in
Government-contractor relationships. While many Federal laws and regulations
place restrictions on the actions of Government personnel, their official conduct
must, in addition, be such that they would have no reluctance to make a full
public disclosure of their actions.”

Our audit found that CPC did not have adequate internal controls in place to
ensure that COTRs and TEP personnel established and documented
independence prior to assignment of COTR and TEP responsibilities. As a
result, we could not determine whether independence had been established by
COTRs and TEP personnel for Recovery Act contracts.

Recommendations

We recommend that the CPC Director:

2a. Require COTRs and TEP personnel to complete conflict of interest
    statements for the period of responsibility and include in the contract file.

2b. Implement and document internal controls to ensure that COTRs and TEP
    personnel establish and document independence prior to assignment of
    COTR and TEP responsibilities.

Management Response

2a. Management concurs. Management has proposed to implement a process
    that will require COTRs and TEP personnel to establish and document
    independence prior to contract assignment.

2b. Management concurs. See the response to recommendation no. 2a.




                                           9

Auditor’s Comments

CPC’s planned actions are responsive to the audit recommendations cited
above and when fully implemented, should satisfy the intent of the audit
recommendations. We reiterate our recommendation that management review
Recovery Act files to ensure that conflicts of interest did not exist at the time
COTRs were assigned.


3. Three (3) COTRs Did Not Complete Required Training
    
As part of our testing, we reviewed the training files of twenty-two (22)
Contracting Officer Technical Representatives (COTR) with Recovery Act COTR
responsibilities. The purpose of our test was to determine whether required
COTR training had been completed prior to the assignment of COTR
responsibilities. Specifically, we requested information confirming dates the
training commenced, the training completion dates and copies of the completion
certificates. Our audit found that nineteen (19) of the twenty-two (22) COTRs
had completed the required COTR training prior to assignment of COTR
Responsibilities. However, CPC could not provide evidence to confirm that
three (3) other COTRs appointed to administer Recovery Act contracts had
completed the required training and certification requirement.

According to Federal Acquisition Certification for Contracting Officer Technical
Representative (FAC-COTR), dated November 26, 2007, all appointed COTRs
must be certified no later than six (6) months from their date of appointment and
must maintain 40-continuous learning points (CLPs) of skill currency through
continuous learning. The FAC-COTR establishes skill and core competencies
for COTRs and requires a minimum of 40 hours of training every two years.
Twenty-two (22) of the required 40 hours of training must cover the essential
core COTR competencies.

OMB Memorandum M-09-15, Updated Implementing Guidance for the American
Recovery and Reinvestment Act of 2009, Paragraph 6.3, dated April 3, 2009,
requires agencies to evaluate their workforce needs so that they are able to
appoint qualified Contracting Officers, COTRs, and Program Managers with
certification levels appropriate to the complexity and risk of Recovery Act
projects.

Our audit found that CPC did not have adequate internal controls in place to
ensure that required training documentation was maintained in the training
documentation file. CPC management indicated that there was an urgent need
to appoint a large number of COTRs in a short period of time to administer ninety
(90) Recovery Act contract awards. CPC management also indicated that two
(2) of the three (3) COTRs had attended the COTR training but had not
completed the full forty (40) hour course requirement.



                                         10 

This departure from FAC-COTR and OMB Memorandum M-09-15 and the use of
untrained personnel on Recovery Act contracts may have resulted in ineffective:

       •   Monitoring and Oversight of Contractor Performance;

       •   Processing of Contractor Invoices;

       •   Execution of Close-Out Procedures.

Recommendations

We recommend that the CPC Director:

3a. Implement internal controls and written procedures to ensure that each
    COTR assigned to future contracts including Recovery Act contracts is
    properly trained and proper training documentation is maintained.

3b. Review the Recovery Act contracts administered by the three (3) untrained
    COTRs for FAR, OMB Memorandum M-09-15 and Recovery Act Compliance.

Management Response

3a. Management concurs. Management has indicated that it has implemented
    an internal control procedure to ensure that the COTR certification is
    validated prior to initiating COTR designation authority on all future
    contracts.

3b. Management did not respond to this recommendation.

Auditor’s Comments

CPC’s corrective actions are responsive to audit recommendation no. 3a and
satisfy the intent of the audit recommendation. However, management did not
respond to recommendation no. 3b regarding the review of contracts
administered by the three (3) untrained COTRs for compliance with FAR, OMB
Memorandum M-09 and the Recovery Act.
    
4. Letter of Appointment Not Signed By COTRs/TPOCs

Our audit included a review of twenty-eight (28) contract files to determine
whether the Contracting Officer had effectively delegated and documented
COTR and TPOC responsibilities, and that COTRs and TPOCs had documented
their acceptance of those responsibilities by signing the Letter of Appointment.
The Letter of Appointment used by CPC in this process required the signatures
of the CO, COTRs and TPOCs executing the appointment of the COTR and TPOC
in the same Letter of Appointment. Our specific procedures included identifying
all COTRs/TPOCs with Recovery Act responsibilities, obtaining copies of their
respective Letters of Appointment from the contract file, and inspecting the
                                         11 

Letter of Appointment for accuracy and completeness. Our audit found the
following:

   •	 Eleven (11) of eighteen (18) COTRs did not sign the Letter of Appointment;

   •	 Sixteen (16) of twenty-three (23) TPOCs did not sign the Letter of 

      Appointment; 


   •	 The Letter of Appointment was not found for one (1) of twenty-eight (28)
      contracts selected in our sample.

FCC-CPC policies and procedures require that the appointment of COTRs and
TPOCs be accompanied by a signed Letter of Appointment.

OMB Memorandum M-09-15, Updated Implementing Guidance for the American
Recovery and Reinvestment Act of 2009, Paragraph 6.3, dated April 3, 2009,
requires agencies to evaluate their workforce needs so that they are able to
appoint qualified Contracting Officers, COTRs, and Program Managers with
certification levels appropriate to the complexity and risk of Recovery Act
projects.

Our audit found that CPC did not follow its policies and procedures requiring
that a Letter of Appointment be signed by COTRs and TPOCs and retained in the
contract file. CPC management indicated that all COTRs and TPOCs had been
given a copy of the Letter of Appointment to sign and return to the CO to be filed
in the contract file. CPC management also indicated that some may still be in
the possession of COTRs/TPOC and had not been returned to file.

This lack of formal acceptance by COTRs and TPOCs is a departure from CPC
policies and procedures as well as OMB Memorandum M-09-15 and resulted in
the appointment of eleven (11) COTRs and twenty-six (26) TPOCs without fully
executing the required Letters of Appointment.

Recommendations

We recommend that the CPC Director:

4. 	Implement internal controls and written procedures to ensure that each
    COTR/TPOC assigned to all contracts, including Recovery Act contracts, has
    a signed and fully executed Letter of Appointment in the contract file.

Management Response

4. 	Management concurs. Management has indicated that it has implemented an
    internal control procedure to ensure that all COTRs and COs sign the COTR
    delegation letter.



                                         12 

Auditor’s Comments

CPC’s planned actions are responsive to the audit recommendation cited above
and when fully implemented, should satisfy the intent of the audit
recommendation.


5. Debarment/Suspension Search Not Documented
     
Our review of contract files, COTR files, available policies and procedures as
well as discussions with CPC procurement management officials indicated that
CPC had not established adequate controls and procedures to ensure that it
does not solicit offers from or award contracts/subcontracts to parties whose
names are on the Excluded Party List System (EPLS) or debarment list. CPC
officials stated that the EPLS search was always conducted but could not
provide documentation to confirm it. EPLS is an electronic, web-based system
that identifies those parties excluded from receiving federal contracts, certain
subcontracts and certain types of financial assistance and benefits. The EPLS
keeps the user community aware of administrative and statutory exclusions
across the entire government. Users are able to search, view, download and
print both current and archived exclusions.

According to Federal Acquisition Regulation (FAR) 9.404(c)(7) Excluded Party
List System, each agency must establish procedures to ensure that the agency
does not solicit offers from, award contracts to, or consent to subcontracts with
contractors whose names are in the EPLS.

Our audit found that CPC did not have adequate internal controls in place to
ensure that EPLS searches were documented. CPC management officials
indicated that the EPLS web site was accessed and a search was made before
awarding Recovery Act as well as other contracts. However, in all twenty-six
(26) of the fixed price contracts that we reviewed, this procedure was not
documented. As a result, we were unable to determine whether Recovery Act
vendors were debarred from conducting business with the federal government.

Recommendations

We recommend that the CPC Director:

5a. Review all Recovery Act contract awards to determine whether any of the
    awardees were debarred or suspended at the time of the contract award. If
    so, initiate and document appropriate remedying actions.

5b. Implement internal controls and written procedures to ensure that an EPLS
    search is conducted to determine whether the offeror was debarred or
    suspended prior to making the contract award. The results of this search
    should be documented in the contract file.

                                         13 

Management Response

5a. Management concurs. Management has re-confirmed and documented that
    all awarded Recovery Act vendors were not listed on the EPLS.
    Management has implemented a contracting file documentation policy to
    ensure that contract files document this information in the future.

5b. Management concurs. See the response for recommendation no. 5a.

Auditor’s Comments

CPC’s planned actions are responsive to the audit recommendations cited
above and when fully implemented, should satisfy the intent of the audit
recommendations.


6. Did Not Always Document Monitoring of Vendor Performance
As part of our audit, we reviewed twenty-eight (28) COTR files selected in our
sample to determine whether COTRs had monitored and verified vendor
performance prior to approving invoices submitted for payment. These twenty-
eight (28) files were administered by eighteen (18) different COTRs. Acquisition
laws and regulations require the COTRs to monitor performance, verify
deliverables in accordance with the contract requirements and certify
satisfactory accomplishment of work billed on the contractor’s invoices prior to
payment. This process should be documented. In conducting our work, we
reviewed CPC’s policies and procedures, obtained checklists, emails,
spreadsheets, written evidence, and other documentation used by the COTR to
monitor and verify vendor performance. We also conducted interviews with
COTRs to obtain other useful information and additional clarification on how the
COTR monitored, verified and documented the vendor’s performance. Our audit
found that in twenty-three (23) of the twenty-eight (28) COTR files reviewed,
there was sufficient documentary evidence to confirm that the vendor’s
performance was adequately monitored and verified prior to approving invoices
for payment. However, CPC did not provide sufficient documentation in five (5)
other COTR files to show that the COTR had monitored and validated the
vendor’s performance prior to approving the invoice.

FAR Subpart 42.302 – Contract Administration Functions permits the
Contracting Officer to delegate the following functions to the COTR:

   •	 Review and approve or disapprove the contractor’s request for payment
      under the progress payments or performance-based payment clauses;

   •	 Make payments on assigned contracts when prescribed in agency 

      acquisition regulations. 

                                        14
OMB Memorandum M-09-15, Updated Implementing Guidance for the American
Recovery and Reinvestment Act of 2009, Paragraph 6.3, dated April 3, 2009,
 states that Agencies must provide for appropriate oversight of contracts to
ensure outcomes that are consistent with and measurable against agency plans
and goals under the Act. It is critical that agencies evaluate their workforce
needs so that they are able to appoint qualified Contracting Officers, COTRs,
and Program Managers with certification levels appropriate to the complexity
and risk of Recovery Act projects. In addition, agencies should actively monitor
contracts to ensure that performance, cost, and schedule goals are being met
including:

   •	 Implementing quality assurance procedures established for the contract;

   •	 Documenting timely inspection and acceptance of deliverables;

   •	 Promptly using all available tools to identify and remedy deficiencies
      related to contractor performance, cost, and schedule (e.g., Quality
      Assurance Surveillance Plans, cure notices, show cause letters); and

   •	 Completing timely contractor performance evaluations that accurately
      reflect the contractor’s actual performance, and are supported by
      appropriate documentation.

Our audit found that CPC did not have adequate internal controls in place to
ensure that COTRs always validated the vendor’s performance prior to
approving vendor invoices. As a result, we could not determine whether the
COTR had verified the vendor’s performance prior to approving the invoices for
payment for the aforementioned five (5) COTR files cited above.

Recommendations

We recommend that the CPC Director:

6a. Establish standard operating procedures (based on contract type) for
    COTRs to follow when validating vendor performance.

6b. Implement internal controls and written procedures to ensure that COTRs
    validate and document vendor performance prior to approving the invoice
    for payment.

Management Response

6a. Management did not respond to this recommendation.

6b. Management did not respond to this recommendation.


                                        15 

Auditor’s Comments

Management agrees that three (3) COTRs did not sufficiently document
validation of vendor performance prior to payment of the invoice. Management
has also indicated that it has verified that vendor performance had been
validated prior to invoice payment. However, CPC did not respond to the
requirements of recommendations 6a and 6b regarding the establishment of
operating procedures and internal controls.


7. Contract Files Were Incomplete
    
Our audit included the review of a sample of twenty-eight (28) contract files
selected for testing to determine whether documentation was sufficient to
provide interested parties with the contracting action’s history. Our work
included inspecting each of the contract files to determine whether required
documentation had been properly completed, approved, signed and retained as
part of the permanent contract file. Our audit found the following required
documents were missing from the twenty-eight (28) contract files that we
reviewed:

    Reference                               Missing                        Number
       FAR                                 Document                          of
     Subpart                                                             Occurrences
   4.803(a)(7)    Government Estimate of Contract Price                      26
   4.803(a)(11)   Contractor’s Representations and Certifications            11
   4.803(a)(26)   Original Signed Contract Modifications                      1

FAR Subpart 4.802 (a), Contract Files, and 4.803, Contents of Contract Files,
stipulate what a contract file should generally consist of and provide examples
of documents normally contained in contract files.

According to FAR Subpart 4.801 (a), the head of each office performing
contracting, contract administration, or paying functions shall establish files
containing the records of all contractual actions.

FAR Subpart 4.803 (b) requires documentation in the file to be sufficient to
constitute a complete history of the transaction for the purpose of:

       (1) Providing a complete background as a basis for informed decisions at
           each step in the acquisition process;

       (2) Supporting actions taken;

       (3) Providing information for investigations and reviews;

       (4) Furnishing essential facts in the event of litigation or congressional
           inquiries.
                                                16 

Further, OMB Memorandum M-09-15, Updated Implementing Guidance for the
American Recovery and Reinvestment Act of 2009, Paragraph 6.5, dated April 3,
2009, states that Agencies are reminded that proper documentation must be
maintained for each contract award. FAR Subpart 4 prescribes policies and
procedures related to proper documentation of contract files.

Our audit found that CPC did not have adequate internal controls in place to
ensure that contract files contained the required documents to support all
contract actions. CPC Procurement Officials indicated that some of the
documents may be in other files and some may have been omitted due to the
urgency associated with awarding the ninety (90) Recovery Act contracts in the
time allotted to complete the analog to digital transition.

This departure from FAR Subparts 4.802 and 4.803 rendered the contract files
incomplete and lacking documentation sufficient to provide interested parties
with the contracting action’s history.

Recommendations

We recommend that the CPC Director:

7a. 	Locate all missing documents required by FAR 4.803 and associate them
     with the appropriate contract file.

7b. Implement internal controls and written procedures to ensure that contract
     files contain all documentation required by FAR 4.803 and OMB
     Memorandum M-09-15.

Management Response

7a. Management concurs that some documents were missing.

7b. Management concurs. Management has indicated that going forward, it will
    implement an internal control procedure to ensure that contract files contain
    all documentation required by FAR 4.803 and OMB Memorandum M-09-15.


Auditor’s Comments

CPC’s planned actions are responsive to audit recommendation no. 7b and
when fully implemented, should satisfy the intent of this audit recommendation.
However, CPC should also locate all missing documents required by FAR 4.803
and associate them with the contract file as recommended by no. 7a.




                                        17 

8. COTR Handbook Was Outdated
     
In our review of COTR activities, our audit found that some COTRs were in
possession of a COTR Handbook dated July 1998. Our audit found that FCC, in
response to a 1997 OIG audit of FCC’s COTR program, issued a five (5) volume
COTR Handbook for use by COTRs and TPOCs. This Handbook is now more
than eleven (11) years old and much of the instructional guidelines are outdated
and not in sync with current acquisition laws and regulations. This guide was
designed to provide management tools, checklists, practical guidance and
sample documents for use by COTRs and TPOCs. Most COTRs and TPOCs
interviewed indicated that they had never used the Handbook and were
unfamiliar with its contents. Our review of the Handbook found that some of the
instructional guidance and practical aids were still effective, relevant, and
useful, but needed some updating to align with current acquisition laws and
regulations.

Office of Federal Procurement Policy (OFPP), Policy Letter 05-01 dated April 15,
2005, states that the Chief Acquisition Officer (CAO) is responsible for
developing basic and refresher training requirements to ensure Contracting
Officer’s Representative (COR) and COTRs are adequately trained for the
function they perform in the acquisition workforce.

Our audit found that CPC did not have adequate internal controls in place to
ensure that the COTR Handbook was periodically updated. CPC management
indicated that this Handbook had been superseded with more current guidance
but did not provide documentation to substantiate this position. We also noted
that the 1998 Handbook was still posted on the FCC intranet. As a result, we
could not determine whether the 1998 Handbook had been superseded with
updated guidance.

Recommendations

We recommend that the CPC Director:

8a. Update the COTR Handbook or replace it with other current or more relevant
    COTR guidance.

8b. Implement internal controls and written procedures to ensure that the new
    COTR guidance is periodically updated as needed.

Management Response

8a. Management concurs. Management has indicated that CPC will determine
    the value of the supplemental handbook and will either remove it or update it
    to reflect current guidance to the COTR in the execution of his/her duties.
    Management has also indicated that CPC will update its internal controls

                                         18 

   concerning COTR training to reflect the latest requirements per IAW FAC-
   COTR.

8b. Management concurs. See response for no. 8a.

Auditor’s Comments

CPC’s planned actions are responsive to the audit recommendations cited
above and when fully implemented, should satisfy the intent of the audit
recommendations.


9. Did Not Implement Recommendations From Prior OIG Audit
As part of the overall audit process, we conducted a follow-up review of findings
identified in the FCC-OIG’s prior audits of the FCC’s Office of Contracts and
Purchase’s policies and procedures. This review was conducted to assist in our
assessment of risk associated with findings cited in the report and to determine
whether CPC had implemented recommendations made in the prior audit
reports. Our work included obtaining and reviewing OIG report (No. 04-AUD-10-
20) dated November 4, 2005 titled “Report on the Audit of Federal
Communications Commission Contracts and Purchases Policies and
Procedures.” This report cited six (6) reportable findings and one (1)
observation in FCC’s procurement and contracting activities. We also obtained
and reviewed a copy of the Federal Communications Commission Performance
and Accountability Report (PAR) for fiscal year ended September 30, 2008. This
report cited one (1) material weakness and five (5) significant deficiencies, but
none that related to CPC’s contracts and purchasing activities. There were no
internal control findings in either report that related to CPC. CPC management
officials indicated that corrective action had been implemented to address
recommendations made in the OIG report, but could not support this position
with documentation. Our audit found two (2) repeat findings from the OIG audit
report on Contracts and Purchases policies and procedures.

In accordance with OMB Circular No. A-50, Audit Follow-Up, September 1982,
CPC should develop a corrective action plan to set forth the specific actions
planned to implement the recommendations and the schedule to provide the
timeframe for implementation.

Our audit found that CPC did not have adequate internal controls in place to
ensure that audit recommendations are implemented on a timely basis. CPC
management officials indicated that OIG audit recommendations had been
implemented but were not able to provide verification. As a result, we could not
determine whether CPC had implemented all recommendations made in the OIG
audit report. Additionally, the audit found that two (2) recommendations had
been closed but had not been implemented.



                                         19 

Recommendations

We recommend that the CPC Director:

9a. Implement all audit recommendations made in the OIG audit report 04-AUD -
    10-20 dated November 4, 2005, and report the corrective actions in
    accordance with FCC and OIG policy and procedures.

9b. Implement internal controls and written procedures to ensure that all
    recommendations resulting from prior audits are implemented on a timely
    basis in accordance with OMB Circular A-50.

Management Response

9a. Management concurs that some of the recommendations made in the OIG
    report dated November 4, 2005 were not implemented.

9b. Management concurs. Management has indicated that going forward, CPC
    will implement internal controls and written procedures to ensure that all
    recommendations resulting from prior audits are implemented on a timely
    basis in accordance with OMB Circular A-50.

Auditor’s Comment

Management’s planned actions are responsive to audit recommendation no. 9b
and when fully implemented, should satisfy the intent of the audit
recommendation. However, management should implement all audit
recommendations made in the OIG audit report 04-AUD -10-20 dated November
4, 2005, and report the corrective actions in accordance with FCC and OIG
policy and procedures as required by recommendation no. 9a.




                                        20 

                                 Appendix – A

                   Objectives, Scope and Methodology

The overall objective of the audit was to determine whether contracts funded by
the American Recovery and Reinvestment Act of 2009 were awarded and
administered in compliance with provisions of the Recovery Act, FCC policies
and procedures and provisions, and the Federal Acquisition Regulation (FAR).

The specific objectives of the audit were to:

            •	 Determine whether the FCC had implemented a comprehensive
               system of internal controls to ensure that Recovery Act funds
               were expended for the intended purposes, were properly
               accounted for, and met program objectives;

            •	 Determine whether Recovery Act contracts were properly
               awarded and effectively administered;

            •	 Determine whether the contracting office was adequately staffed
               and appropriately organized to effectively administer contracts
               funded by the Recovery Act;

            •	 Determine whether the contracting office was structured,
               organizationally, in a manner that provides a framework that
               ensures that integrity and independence for Recovery Act
               contracts are not impaired;

            •	 Determine whether personnel administering Recovery Act
               contracts (COs, CORs, COTRs, and TPOCs) were properly
               trained and appointed in writing;

            •	 Determine whether the contracting office complied with
               competition requirements set forth by the Recovery Act, Code of
               Federal Regulations Title 41, the Federal Acquisition Regulation
               and other acquisition regulations and policies when awarding
               and administering contracts;

            •	 Determine whether all Recovery Act sole source contracts were
               properly supported by a legal review and an adequate
               justification for other than full and open competition;

            •	 Determine whether the contracting office performed adequate
               reviews of offeror’s past performance prior to awarding
               Recovery Act contracts;

                                          21 

            •	 Determine whether the contracting office ensured that offerors
               were not on the SBA or other list of suspended, debarred or
               excluded parties;

            •	 Determine whether Recovery Act contract billings were
               accurate, prepared in accordance with the FAR, and included
               adequate detail to support charges;

            •	 Determine whether contracted goods and services using
               Recovery Act funds were appropriate under the provisions of the
               Recovery Act;

            •	 Determine whether the Contracting Office complied with small
               business contracting provisions set forth in the Recovery Act,
               CFR and the FAR;

            •	 Determine whether contracted Recovery Act goods and services
               (deliverables) were actually received, and properly recorded as
               accepted prior to payment;

            •	 Determine whether Recovery Act contracts were awarded free
               of conflicts of interest and other impairments to independence.

 The scope of the audit included a review of twenty-eight (28) Recovery Act
contracts awarded by the Contracts and Purchasing Center during fiscal year
ended September 30, 2009. These contracts were awarded for $45,301,328.
The purpose of our review was to determine whether contracts funded by the
Recovery Act were awarded and administered in accordance with provisions of
the Recovery Act, FCC policies and procedures and provisions and the Federal
Acquisition Regulation (FAR). Our work included a review of the pre-solicitation,
solicitation, evaluation, award, and administration phase of each contract
selected in our sample. Our risk-based judgmental sample selection included
two (2) of four (4) Time and Materials (T&M) contracts with a contract value of
$34,353,767 and twenty-six (26) of eighty-six (86) fixed price contracts with a
contract value of $10,947,561. Our total sample consisted of 28 contracts
totaling $45,301,328 or 67.8 percent of the contracts universe ($66,859,685).
Our professional auditing services were limited to a review of Recovery Act
procurements to include the pre-solicitation, solicitation, evaluation, award and
administration phases of each contract selected in our sample. Our professional
services also included determining whether CPC had implemented a
comprehensive system of internal controls that was adequate to ensure
Recovery Act funds were expended for the intended purposes, were properly
accounted for and that program objectives were being met.

We conducted the audit from September 2009 through January 2010 in
accordance with Government Auditing Standards, July 2007 revision. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
                                        22 

conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions, based on
our audit objectives.

Our audit methodology was designed to utilize a risk-based approach. To
achieve our audit objectives, we:

   •	 Reviewed available policies and procedures governing the procurement
      and contracting process; conducted interviews with COTRs, TPOCs,
      management and other personnel;

   •	 Distributed surveys to sixty-six (66) management and non-management
      personnel soliciting information on Recovery Act compliance, internal
      controls, fraud, training, supervision and ethics;

   •	 Conducted a detailed review of sampled contract files, COTR files and
      Technical Evaluation Panel (TEP) files;

   •	 Conducted a walk-through of the Desk Top Procurement Software 

      procedures; identified high risk areas; reviewed training files; 


   •	 Reviewed personnel appointment documents;

   •	 Conducted a follow-up review of findings identified in the FCC-OIG’s Audit
      of FCC’s Contracts and Purchases Policies and Procedures.

The audit included a review of approximately $45.3 million in Recovery Act
contracts from a universe of $66.8 million awarded to Small Businesses, Hub
Zone Businesses and Other Size Businesses. Under the unprecedented
transparency and accountability requirements of the Recovery Act, contractors
receiving Recovery Act awards were required to report performance
information, such as number of customers served or installations completed as
well as other statistical information. This information is required to be posted to
the FCC Recovery Act web site. These contractors provided education and
outreach services, basic and expert converter box installations, static and
mobile walk-in centers and information technology services. Contracts were
also awarded for media buys and call center services. The primary recipients of
these services were vulnerable populations, including senior citizens, minority
communities, people with disabilities, low-income individuals and people living
in rural areas. The following tables below illustrate the total number and dollars
or Recovery Act awards tested compared to the universe available for testing by
socio-economic status, procurement type and region.




                                          23 

                 Recovery Act Dollars Awarded By Socio-Economic Status

        Socio-Economic           Total          Total            Total          Total
            Status              Awards         Dollars          Awards         Dollars
                                Sampled       Sampled           Universe      Universe
    Hub-Zone                       8            $5,364,476         20           $8,999,349
    Small Businesses              10             2,147,998         32            9,361,064
    Other Size Businesses         10            37,788,854         38           48,499,272

    Total                         28           $45,301,328         90          $66,859,685




                   Recovery Act Dollars Awarded By Procurement Type

            Procurement         Total          Total             Total          Total
               Type            Awards         Dollars           Awards         Dollars
                               Sampled       Sampled            Universe      Universe
     Basic Installs                9          $4,351,048            26          $8,797,398
     Expert Installs               9           3,131,153            24           6,960,420
     Walk-In Centers               8           3,465,360            36          11,558,397
     Call Centers                  1          28,387,507             2          32,474,507
     Media Buys                    1           5,966,260             1           5,966,260
     IT Support                   -0-                 -0-            1           1,102,703

     Total                        28         $45,301,328            90        $66,859,685




                          Recovery Act Dollars Awarded By Region

               FCC               Total           Total            Total           Total
              Region            Awards          Dollars          Awards          Dollars
                                Sampled        Sampled           Universe       Universe
    East Central Region                 4          $2,397,666           12        $3,982,644
    Southwest Region                    6           2,694,196           16         5,089,116
    Southeast Region                    5           1,912,520           16         3,707,867
    Northeast Region                    4           1,303,978           16         4,904,156
    West Central Region                 4           1,350,776           18         4,732,869
    Pacific Region                      3           1,288,425            8         4,899,563
    Nationwide 4                        2          34,353,767            4        39,543,470

    Total                           28          $45,301,328             90       $66,859,685




4
CPC awarded a Recovery Act contract for call center services to cover all fifty (50) states,
Washington, DC and US Possessions and Territories.
                                              24
    Appendix – B 


Management Comments

26 

27 

28 

29 

